           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement –                           Date:    December 16, 2010
           Follow-Up Review of FAA’s Oversight of Foreign
           and Domestic Repair Stations
           Federal Aviation Administration
           Project No. 11A3004A000

  From:    Jeffrey B. Guzzetti                                      Reply to
                                                                    Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Director, Audit and Evaluation

           In recent years, major U.S. airlines have steadily increased their use of contract repair
           stations to perform aircraft maintenance. Between 2000 and 2009, airlines increased
           their maintenance outsource spending by more than $1.1 billion. Forecasts show that
           the maintenance, repair, and overhaul industry will grow annually by 4.4 percent over
           the next 10 years, yielding a market value of between $50 billion to $65 billion for
           this segment of the aviation industry. These upward trends are expected to continue
           as airlines continue to cut maintenance costs and increase profitability.

           Since 2003, we have reported on the need for FAA to strengthen its oversight of
           repair stations to ensure that contract repairs meet FAA standards. While FAA has
           made a number of procedural changes in response, it has not addressed our most
           significant—and longstanding—recommendations to identify repair stations
           performing safety-critical repairs and repair stations air carriers use most often.

           At the request of Representative Jerry F. Costello, Chairman of the House
           Subcommittee on Aviation, we are initiating a follow-up review of FAA’s oversight
           of repair stations. Our audit objectives are to (1) examine changes FAA has made to
           its repair station oversight, (2) assess the effectiveness of these changes in bolstering
           FAA’s oversight of both domestic and foreign repair stations, and (3) identify any
           additional challenges to effective oversight that FAA still needs to address.

           Our audit will include visits to FAA Headquarters and regional offices as well as
           select Flight Standards Service field offices that oversee commercial airlines and
           repair stations.
                                                                                   2


We plan to begin the audit the week of January 3, 2011, and will contact your audit
liaison to schedule an entrance conference. If you have any questions, please contact
me at (202) 366-0500 or Tina Nysted, Program Director, at (404) 562-3770.

                                         #
cc: Anthony Williams, AAE-001
    Martin Gertel, M-l
